      OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




    Limited Interagency Coordination and Insufficient
   Controls over U.S. Funds in Afghanistan Hamper U.S.
    Efforts to Develop the Afghan Financial Sector and
                   Safeguard U.S. Cash




                                            July 20, 2011




SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance
      OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


July 20, 2011

Executive Departments and Agencies:

This report discusses the results of a performance audit of U.S. efforts to improve the capacity of the
Afghan government to regulate the financial sector and to strengthen the controls that U.S. agencies use
to track U.S. funds as they flow through the Afghan economy. This report includes one recommendation
to the U.S. Ambassador to Afghanistan to improve interagency coordination on financial sector
development programs and three recommendations to the Secretary of State and the Secretary of
Defense to strengthen oversight over the flow of U.S. funds through the Afghan economy.

When preparing the final report, we considered comments from the U.S. Embassy in Kabul, USAID, and
DHS, which generally concurred with the report’s recommendations. These comments are reproduced
in appendices II-IV, respectively.

A summary of this report is on page ii. This performance audit was conducted by the Office of the
Special Inspector General for Afghanistan Reconstruction under the authority of Public Law No. 110-181,
as amended; the Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




Herbert Richardson
Acting Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                     Page i
List of Addressees

The Honorable Hillary Rodham Clinton
Secretary of State

The Honorable Leon E. Panetta
Secretary of Defense

The Honorable Janet Napolitano
Secretary of Homeland Security

The Honorable Timothy F. Geithner
Secretary of the Treasury

The Honorable James B. Cunningham
Charge d’Affaires, U.S. Embassy Afghanistan

Dr. Rajiv Shah
Administrator, U.S. Agency for International Development

Dr. S. Ken Yamashita
USAID Mission Director to Afghanistan




SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance   Page ii
                                                       SIGAR Audit-11-13                                            July 2011


               SIGAR
Special Inspector General for Afghanistan Reconstruction
                                                         Limited Interagency Coordination and Insufficient Controls
                                                           over U.S. Funds in Afghanistan Hamper U.S. Efforts to
                                                            Develop the Afghan Financial Sector and Safeguard
                                                                                 U.S. Cash
What SIGAR Reviewed
Since 2002, Congress has appropriated more than $70 billion to implement security and development assistance
projects in Afghanistan, with some of those funds converted into cash and flowing through the Afghan economy. The
United States is implementing programs to increase the capacity of Afghanistan’s central bank (Da Afghanistan Bank, or
DAB) to regulate the nation’s 17 commercial banks and to strengthen U.S. and Afghan law enforcement agencies’
oversight over the flow of funds through the Afghan economy. This report (1) evaluates U.S. efforts to improve the
capacity of the Afghan government to regulate the financial sector (which includes commercial banks and informal
financial organizations, or hawalas) and (2) assesses the controls that U.S. agencies use to track U.S. funds as they flow
through the Afghan economy. To accomplish these objectives, we reviewed Afghan laws and U.S. policies, plans, and
progress reports relevant to U.S. financial sector development initiatives. We met with officials from the Departments
of State, Homeland Security (DHS), Treasury, Defense (DOD), and the U.S. Agency for International Development
(USAID). We conducted our work in Washington, D.C., and Kabul, Afghanistan, from October 2010 to July 2011 in
accordance with generally accepted government auditing standards.


What SIGAR Found
Although U.S. agencies reported some progress in strengthening the Afghan government’s ability to regulate its
financial sector, two challenges prevent U.S. programs from fully achieving their intended results. First, U.S. agencies
have not fully coordinated the implementation of their efforts. For instance, a key interagency working group did not
include all U.S. agencies involved in implementing financial sector development programs. Additionally, DOD and DHS
officials have not coordinated their work with the same commercial banks. Limited interagency coordination puts U.S.
agencies at risk of working at cross-purposes or, at a minimum, missing opportunities to leverage existing relationships
and programs. Second, Afghan ministries have not cooperated consistently with the United States, thereby delaying
U.S. programs or preventing them from succeeding. For instance, Treasury reported that its programs to strengthen
the Afghan government’s ability to identify financial crimes have had limited results because of Afghan officials’
reluctance to prosecute some cases. Additionally, because of disagreements between the U.S. and Afghan
governments, the Afghan government has banned U.S. government advisors from working at DAB. Without full
cooperation from the Afghan government, U.S. financial sector development efforts are limited.
While U.S. agencies have taken steps to strengthen their oversight over U.S. funds flowing through the Afghan
economy, they still have limited visibility over the circulation of these funds, leaving them vulnerable to fraud or
diversion to insurgents. First, U.S. agencies do not record the serial numbers of cash disbursed to contractors and other
recipients. Second, commercial banks do not record the serial numbers of electronic payments made by U.S. agencies
to contractors and other recipients when their electronic payments are converted into cash. Third, U.S. contracting
regulations neither prohibit prime contractors from using unlicensed hawalas to pay subcontractors nor require them
to use banks capable of handling electronic funds transfers. These vulnerabilities limit the U.S.’s ability to track
information on U.S. funds as they enter and circulate through the Afghan economy – information that could be
important for law enforcement purposes.


What SIGAR Recommends
Our draft of this report included a recommendation that the members of the Financial Sector Working Group include
DHS in their planning meetings. In commenting on a draft of this report, the U.S. Embassy in Kabul, USAID, and DHS
provided documentation that all U.S. agencies involved in implementing financial sector development programs are
now included in the key interagency working group. As a result, SIGAR deleted the recommendation. SIGAR is making
one recommendation to the U.S. Ambassador to Afghanistan to improve interagency coordination on financial sector
development programs and three recommendations to the Secretaries of State and Defense to strengthen oversight
over the flow of U.S. funds through the Afghan economy. The U.S. Embassy in Kabul agreed to take some steps to
implement the recommendations, but also noted continuing challenges to financial sector development in Afghanistan.
DOD chose not to comment on this report.

                  For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil



SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                            Page iii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Limited Interagency Coordination And Inconsistent Afghan Cooperation Hamper
    Effectiveness of Programs to Strengthen the Afghan Financial Sector .................................................. 6
Lack of Visibility Over U.S. Cash Entering the Afghan Economy Leaves These
    Funds Vulnerable to Fraud or Diversion to Insurgents ........................................................................ 13
Conclusion ................................................................................................................................................... 20
Recommendations ...................................................................................................................................... 21
Comments ................................................................................................................................................... 21
Appendix I: Scope and Methodology ......................................................................................................... 23
Appendix II: Comments from the U.S. Embassy Kabul .............................................................................. 26
Appendix III: Comments from the Department of Homeland Security ..................................................... 30
Appendix IV: Comments from the U.S. Agency for International Development ....................................... 32


TABLES

Table 1: U.S. Obligations and Expenditures for Programs to Improve Afghan
    Financial Sector Regulation, as of December 2010 ................................................................................ 6


FIGURES AND PHOTOS

Figure 1: Mechanisms Used by U.S. Agencies to Make Payments to Contractors
    and Afghan Civil Servants ....................................................................................................................... 4
Figure 2: Number of Commercial Bank Branches and Dollar Value of Assets
    Managed by Afghan Banks (in millions) ............................................................................................... 10
Figure 3: Percentage of U.S. Army Finance Offices’ Payments Made in Cash in
    Afghanistan........................................................................................................................................... 15
Figure 4: Percentage of State’s Payments Made in Cash in Afghanistan .................................................. 16
Figure 5: Vulnerabilities in Flow of U.S. Funds Through the Afghan Economy .......................................... 17
Figure 6: Map Indicating Locations of EFT Capable Banks and Licensed Hawalas
    in Afghanistan ....................................................................................................................................... 20




SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                                                         Page iv
ACRONYMS

AIB                       Afghanistan International Bank
AML/CFT                   Anti-Money Laundering/Countering the Financing of Terrorism
ANSF                      Afghan National Security Forces
ATFC                      Afghan Threat Finance Cell
ATM/POS                   Automatic Teller Machine/Point Of Sale
ARTF                      Afghanistan Reconstruction Trust Fund
CENTCOM                   U.S. Central Command
DAB                       Da Afghanistan Bank
DHS                       Department of Homeland Security
DOD                       Department of Defense
EFT                       Electronic Funds Transfer
EGGI                      Economic Growth and Governance Initiative
FAIDA                     Financial Access for Investing in the Development of Afghanistan
FinTRACA                  Financial Transactions and Reports Analysis Center of Afghanistan
GAO                       Government Accountability Office
IMF                       International Monetary Fund
ISAF                      International Security Assistance Force
SIGAR                     Special Inspector General for Afghanistan Reconstruction
SY                        Solar Year
TFBSO                     Task Force for Business and Stability Operations
USAID                     U.S. Agency for International Development
USFOR-A                   U.S. Forces-Afghanistan




SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                 Page v
     Limited Interagency Coordination and Insufficient Controls over U.S. Funds in
      Afghanistan Hamper U.S. Efforts to Develop the Afghan Financial Sector and
                                 Safeguard U.S. Cash


In 2002, Afghanistan did not have an active banking system. With support from the U.S. government
and other donors, the country reestablished its central bank (Da Afghanistan Bank or DAB), which, as of
August 2010, was responsible for regulating 17 commercial banks with about 320 branches throughout
Afghanistan. However, DAB’s oversight and regulatory operations are not yet fully developed, many of
the commercial banks lack basic capabilities, and the Afghan population continues to rely heavily on
cash transactions through informal networks, known as hawalas. 1 Moreover, Afghanistan’s financial
sector faced a significant crisis in September 2010, when Kabul Bank (Afghanistan’s largest commercial
bank) nearly collapsed after news of alleged fraud and corruption at the bank led to a run on deposits.

The U.S. government has an interest in addressing these weaknesses, both to reduce the risk that U.S.
funds are used for fraudulent purposes or diverted to insurgent networks and to help the Afghan
government develop the financial capacity to support sustained development—a key reconstruction
goal. As a result, U.S. agencies, particularly the U.S. Agency for International Development (USAID) and
the Departments of the Treasury (Treasury), Defense (DOD), and Homeland Security (DHS) have
implemented programs to develop the Afghan government’s capacity to regulate the financial sector
and strengthen controls over U.S. funds. This audit (1) evaluates U.S. efforts to improve the capacity of
the Afghan government to regulate the financial sector and (2) assesses the controls that U.S. agencies
use to track U.S. funds as they flow through the Afghan economy.

To accomplish these objectives, we reviewed Afghan laws, and U.S. policies, plans, and progress reports
relevant to U.S. initiatives to improve the Afghan government’s capacity to regulate the financial sector
and to strengthen oversight over U.S. funds as they flow through the Afghan economy. We met with
officials from the Department of State (State), DHS, Treasury, and DOD, as well as USAID and various
officials at DAB. We also observed a meeting of an interagency working group focused on financial
sector issues. We conducted site visits at the Kabul International Airport and various offices of DAB. We
conducted our work in Washington, D.C. and Kabul, Afghanistan from October 2010 through July 2011,
in accordance with generally accepted government auditing standards. Appendix I includes a discussion
of our scope and methodology.




1
    Hawala dealers are individuals engaged in an informal money transfer system common in the Middle East and South Asia.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                         Page 1
BACKGROUND

U.S. funds enter the Afghan economy primarily through disbursements to contractors and salary
payments to Afghan civil servants.

     •    Disbursements to contractors and other entities: DOD, State, and USAID 2 obligate funds to
          contractors and other entities to implement contracts, grants, and cooperative agreements for
          reconstruction in Afghanistan. 3 U.S. agencies rely on civilian contractors or other recipients to
          provide supplies and services in support of contingency operations and reconstruction programs
          in Afghanistan. U.S. Forces-Afghanistan (USFOR-A) serves as the command and control
          headquarters for U.S. Forces operating in Afghanistan. 4 Its responsibilities include overseeing all
          DOD contractors in Afghanistan and managing, coordinating, and monitoring DOD contractors
          throughout Afghanistan through its major subordinate commands and liaisons with civilian
          agencies (such as State and USAID). USFOR-A’s Financial Management Center provides technical
          oversight of all theater finance operations, including negotiating with commercial banks on
          expanding their use of electronic payments.
     •    Salary payments to civil servants and Afghan National Security Forces (ANSF) personnel: 5 As
          of February 2010, State and USAID provided about $7.9 million in payments to support the
          salaries of at least 900 Afghan civil servants. Under this initiative, the U.S. government makes
          contributions directly to DAB, which transfers the funds to the Afghan Ministry of Finance for
          payment. Additionally, the Law and Order Trust Fund for Afghanistan, an international trust
          fund managed by the United Nations Development Programme, pays for salaries, allowances,
          and other benefits of Afghan National Police personnel. Using this trust fund, the United States
          and other international donors have contributed almost $1.5 billion since 2002 to support the
          salaries of as many as 125,000 personnel. 6

U.S. agencies typically use two mechanisms to pay contractors and other entities and Afghan civil
servants—electronic funds transfer (EFT) or cash payments, either in U.S. dollars or Afghanis. 7 The
U.S. government also supports a pilot program to deliver salaries to Afghan National Security Forces

2
  While other U.S. agencies have awarded contracts in Afghanistan, Congress has appropriated the majority of funds for
reconstruction in Afghanistan to DOD, State, and USAID. As a result, we focused on these three agencies for the purposes of
this report.
3
  We previously reported that between fiscal year 2007-2009, DOD, State, and USAID obligated as much as $17.7 billion to
contractors and other entities based in the United States or Afghanistan. Funds may be disbursed to bank accounts based in
the United States, in which case they may not directly enter the Afghan economy. Other disbursements are made directly into
Afghan bank accounts, where they enter the Afghan economy. Data on total disbursements entering the Afghan economy
directly are not available. See SIGAR Audit-11-4, DOD, State, and USAID Obligated Over $17.7 Billion to about 7,000 Contractors
and other Entities for Afghanistan Reconstruction During Fiscal Year 2007-2009 (Washington, D.C.: October 27, 2010).
4
  U.S. command structure in Afghanistan has evolved over time. To perform its military missions around the world, DOD
operates geographic combatant commands that conduct activities within assigned areas of responsibility. Combatant
commanders oversee U.S. military operations that take place within their area of responsibility. In Afghanistan, American
forces fight as part of the International Security Assistance Force (ISAF), a multinational strategic unit. The Combined Joint Task
Force, which was subordinate to ISAF, was responsible for the command and control of operations throughout Afghanistan. In
2009, the U.S. troops’ designation became U.S. Forces-Afghanistan. USFOR-A develops strategies and priorities for U.S.
operations in Afghanistan.
5
  We completed two audits related to U.S. salary support provided to Afghan civil servants. See SIGAR Audit-11-5, Actions
Needed to Mitigate Inconsistencies in and Lack of Safeguards over U.S. Salary Support to Afghan Government Employees and
Technical Advisors (Washington, D.C.: October 29, 2010) and SIGAR Audit-11-10, Despite Improvements in MoI’s Personnel
Systems, Additional Actions are Needed to Completely Verify ANP Payroll Costs and Workforce Strength (Washington, D.C.:
April 25, 2011).
6
  U.S. agencies provided about $441 million to this fund through September 30, 2010.
7
  The Afghani is the official currency of Afghanistan.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                              Page 2
personnel through mobile phones. In an EFT payment, funds are electronically transferred from the
U.S. Federal Reserve Bank, via Citibank to either DAB, Alfalah Bank (a Pakistani bank with a Kabul
branch), or Afghanistan International Bank (AIB), which then transfers the funds directly into the
vendor’s bank account. 8 DOD and State also make payments to contractors in cash whereby payment
officials disburse cash directly to vendors. When USAID and State pay Afghan civil servants, they do so
by making EFTs to DAB, which are forwarded to the civil servant either in cash or via an EFT through the
Afghan Ministries of Finance or Interior. Fifty-six percent of Afghan civil service employees and nearly
80 percent of Afghan National Police personnel receive their salaries electronically.

According to U.S. officials, U.S. funds typically flow through the Afghan economy in three phases. First,
DOD, State, and USAID disburse funds to recipients, either through an EFT or in cash. Once an EFT
payment is made, contractors and other entities or civil servants convert the electronic payment into
cash at a commercial bank, a process known as monetization. Because Afghanistan’s economy is cash-
based, these recipients typically purchase raw materials or pay subcontractors in cash. Finally,
contractors, subcontractors, and civil servants circulate funds through the Afghan economy using EFTs,
cash, or hawalas to transfer funds between individuals. Afghans depend heavily on hawalas to transfer
money within Afghanistan and abroad. In a typical hawala transaction, cash is transferred from one
person to another through a network of trusted agents, who have representatives in the locations
where money is being sent and received. For example, a prime contractor or another recipient that
receives U.S. funds may use a hawala dealer to make payments to its subcontractors in remote areas.
Figure 1 shows how U.S. funds enter and flow through the Afghan economy.




8
  A formal partnership was formed between Citibank and AIB in September 2010, which established AIB as the predominant
intermediary Afghan commercial bank to transfer DOD vendor payments.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                     Page 3
Figure 1: Mechanisms Used by U.S. Agencies to Make Payments to Contractors and Afghan Civil
Servants
                                      DOD, State, and USAID                            Salary support payments
                                       payments made to                                 made by USAID, State,
                                      contractors and other                                     and the
                                             entities                                   U.S. Embassy in Kabul



 Disbursement:
                                     EFT
 U.S. agencies use EFT or                                      Cash
 cash to make payments to
 contractors and Afghan                                                        Da Afghanistan
                                                                                   Bank
 civil servants. EFT
 payments flow through a
 contractor’s commercial
 bank account, while cash                                                                       Ministry of
                                                                                                Finance or
 is paid directly to the          Electronic              Direct cash
                                                                                            Interior (for ANSF
                               payment made to            payment to
 recipient.                    contractor’s bank          contractor
                                                                                                personnel)



                                                                                           EFT              Cash



                                                                                EFT payment                    Direct cash
                                                                                 made to civil              payment made to
                                                                                servant’s bank                civil servant



Monetization:
Payments are converted           Contractor                                     Civil servant
into cash at a commercial       monetizes EFT                                  monetizes EFT
bank.                             payment                                        Payment




                                                                                                   Civil
                                            Contractor
                                                                                                  servant
                                             receives
                                                                                                 receives
                                             payment
                                                                                                 payment



Circulation:
Funds are used to pay                  Contractor circulates                               Payment circulates
                                        funds through the                                   through economy
subcontractors or                       Afghan economy,
circulated through the                   including paying
Afghan economy. Some                  subcontractors through
                                       unlicensed hawalas
funds leave the country to
pay for imports or to settle
foreign debts.
                                                                      Some funds
                                                                          leave
                                                                      Afghanistan
                                                                         through
                                                                      airports and
                                                                      other border
                                                                       crossings



 Key:
   C

            EF
    as


              T
        h


                 Pa
         Pa


              ym t
            ym


                en
                en


                   t




Source: SIGAR analysis of information provided by State, Treasury, DOD, and DHS.
Note: Figure shows payments made through Afghan banks. U.S. agencies also make payments through U.S. banks, but these
payments do not directly enter the Afghan economy and are, therefore, not depicted in this figure. As we note elsewhere in
this report, USAID does not make cash payments to recipients.

Because of the level of corruption in Afghanistan and the continuing insurgency, the U.S. government’s
lack of visibility over its funds is a significant concern. Reports of as much as $10 million a day in cash
leaving the Kabul International Airport have added to these concerns. Treasury officials reported that
about $1.3 billion in outbound cash was declared to Afghan Customs Department personnel at the Kabul

SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                                 Page 4
International Airport during 2010, including about $482 million (or 36 percent of the total) in
U.S. dollars. As a result, the U.S. government has implemented programs to develop the Afghan
government’s capacity to regulate its financial sector and strengthen controls over U.S. funds that enter
and leave Afghanistan.

     •    USAID’s Economic Growth and Governance Initiative (EGGI), a program active from August
          2009 until it was terminated for convenience by USAID in April 2011, provided support to DAB
          to, among other things (1) strengthen its ability to conduct oversight of commercial banks
          through onsite and offsite audits (2) improve macroeconomic decision-making through data
          collection and analysis, and (3) promote the adoption of amendments to existing banking laws.
          Under this initiative, EGGI advisors mentor and support various departments in DAB, including
          the Financial Supervision Department (which regulates commercial banks, hawalas, and other
          financial institutions in Afghanistan) and the Office of General Counsel (which drafts commercial
          banking regulations and proposes financial sector laws on behalf of DAB to the Afghan
          Parliament).9
     •    Treasury’s Hawala Registration and Support for the Financial Transactions and Reports
          Analysis Center of Afghanistan (FinTRACA) 10 supports DAB in its efforts to register hawalas and
          prevent money laundering or the illicit use of U.S. funds. Under Afghan law, all operating
          hawalas are required to be licensed and report their transactions periodically to DAB. Treasury
          has also mentored DAB’s anti-money laundering/countering the financing of terrorism
          (AML/CFT) staff to more effectively regulate AML/CFT programs being implemented at
          commercial banks and other financial institutions. In addition, Treasury has provided
          equipment and technical assistance to FinTRACA to increase its capacity to monitor currency
          flows throughout Afghanistan.
     •    DOD’s Task Force for Business and Stability Operations (TFBSO) has initiatives to increase
          Afghan banks’ ability to accept EFT transactions and to develop a retail payments infrastructure
          that will allow banks to establish an Automatic Teller Machine/Point of Sale (ATM/POS)
          network. 11 In March of 2010, TFBSO established an EFT Assistance Center, which receives calls
          from banks, contractors, and U.S. agency contracting offices to address problems they may have
          when making EFT payments.
     •    DHS’s Bulk Cash Flow Action Plan is a program to help the Afghan government monitor the flow
          of currency leaving the Kabul International Airport—an important component of strengthening
          Afghanistan’s financial sector. DHS officials have trained Afghan law enforcement officials in
          methods to identify bulk cash smuggling. DHS also established Operation FinTRAX, an initiative
          to place bulk currency counters at the Kabul International Airport to monitor the outflow of
          funds from Afghanistan. Additionally, U.S. and Afghan law enforcement personnel can use




9
  USAID has provided assistance to build DAB’s capacity under other initiatives since 2003.
10
   FinTRACA is the financial intelligence unit of DAB and receives data on financial activity to identify financial crimes and assist
law enforcement agencies in investigation and prosecution of criminal activity. Typically, financial intelligence units are based
within the central bank , the Ministry of Finance , or regulatory agency of a country and provide intelligence on suspicious
transactions to law enforcement organizations for investigation and arrest.
11
  A POS transaction is a form of electronic payment developed for the retail sector in which consumers may use credit or debit
cards to make payments to vendors. According to TFBSO officials, the funding for the development of the retail payments
infrastructure project has been put on hold by State and negotiations among TFBSO, State, and Treasury are underway to
continue the project or find alternatives.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                                 Page 5
           these data to identify individuals suspected of bulk currency smuggling or other financial
           crimes. 12

Table 1 shows the funds that USAID, Treasury, DOD, and DHS have obligated and expended under these
initiatives.


Table 1: U.S. Obligations and Expenditures for Programs to Improve Afghan Financial
Sector Regulation, as of December 2010
                                                                                   Obligations                    Expenditures
Department or
                       Program                                                      (dollars in                      (dollars in
Agency
                                                                                     millions)                        millions)

USAID                  Economic Growth and Governance Initiative                         $8.9                               $5.9

Treasury               Hawala registration and support to FinTRACA                          $6                             $2.7

DOD                    TFBSO banking sector development initiative                          $4                               $2

DHS                    Bulk Cash Flow Action Plan implementation                         $1.8                               $1.2

                       Total                                                            $20.7                              $11.8

Source: SIGAR Analysis of USAID, Treasury, DOD, and DHS data.
Note: Obligations for the EGGI program were derived from contractor estimates.

Additionally, the Afghan Threat Finance Cell (ATFC), an interagency fusion center established in 2009,
uses diplomacy, law enforcement actions, military operations, and targeted financial measures to
address threat finance in Afghanistan. The Drug Enforcement Administration heads the ATFC, with
representatives from Treasury and DOD. ATFC operations are focused on addressing corruption within
the Afghan government, disrupting insurgency financing, and attacking the Afghan narcotics trade.
According to ATFC officials, the ATFC works with two Afghan counterparts, FinTRACA and a vetted
police unit called the Sensitive Investigative Unit’s Financial Investigative Team. 13



LIMITED INTERAGENCY COORDINATION AND INCONSISTENT AFGHAN COOPERATION
HAMPER EFFECTIVENESS OF PROGRAMS TO STRENGTHEN THE AFGHAN FINANCIAL SECTOR

Although U.S. agencies reported some progress in strengthening the Afghan government’s ability to
regulate its financial sector, two challenges are preventing U.S. programs from fully achieving their
intended results. First, U.S. agencies have not fully coordinated their development efforts. Although
several U.S. strategic documents concerning operations in Afghanistan emphasize the importance of
interagency coordination in Afghanistan, we found instances in which U.S. agencies were not fully

12
   Because the Bulk Cash Flow Action Plan and Operation FinTRAX are designed both to strengthen the Afghan financial sector
and to bolster visibility over U.S. funds flowing through the Afghan economy, we discuss findings related to these initiatives in
both sections of this report.
13
   According to DHS Officials, the Afghan Sensitive Investigative Unit is a cadre of Afghan National Police investigators who have
been trained and mentored by DHS and other U.S. agency advisors.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                             Page 6
collaborating with one another. For example, DOD and DHS officials have not coordinated their efforts
involving their work with the same banks. As a result of limited interagency coordination, these
agencies are at a risk of working at cross purposes, or, at a minimum, missing opportunities to leverage
existing relationships and programs. Second, limited cooperation from Afghan ministries has delayed
the implementation of U.S. programs or is preventing them from achieving their intended results. For
instance, USAID officials reported that DAB has resisted efforts to conduct an onsite examination of
Afghan commercial banks because DAB officials believe that such supervision would be too difficult to
implement. Additionally, officials from the U.S. Embassy in Kabul reported that as of May 2011,
Treasury no longer provides technical advisors at DAB and described the working conditions at DAB as
“hostile.” Limited cooperation from the Afghan ministries may reduce the effectiveness of U.S. financial
sector development efforts.

U.S. Agencies Have Not Fully Coordinated Their Programs to Develop Afghanistan’s Financial
Sector

Interagency coordination has improved in the wake of the Kabul Bank crisis; however, we found that
U.S. agencies have not fully coordinated their financial sector development programs. Several U.S.
strategic documents for Afghanistan emphasize the importance of interagency coordination. For
instance, according to the Afghanistan/Pakistan Regional Stabilization Strategy, 14 U.S. civilian and
military agencies are to combine their efforts to achieve their objectives in Afghanistan. Additionally,
the U.S. Government Integrated Civilian-Military Campaign Plan for Support to Afghanistan 15 states that
the implementation of U.S. reconstruction initiatives in Afghanistan depends on effective integration of
civilian and military resources. Finally, the U.S. Government Accountability Office (GAO) has identified
key practices that can help enhance and sustain interagency coordination. 16 These practices include
establishing communication tools to operate across agency boundaries, including all stakeholders in
developing mutually reinforcing or joint strategies, leveraging resources by defining and addressing
problems, and agreeing on agency roles and responsibilities.

Prior to the run on Kabul Bank, officials from USAID, Treasury, and DOD did not regularly meet to discuss
their efforts to develop the Afghan financial sector. In September 2010, USAID and Treasury created the
Financial Sector Working Group to coordinate their response to the Kabul Bank crisis and share
information on relevant development programs. The Financial Sector Working Group was created to
increase the volume of information that U.S. agencies and international organizations, such as the
International Monetary Fund (IMF), receive from DAB and other Afghan ministries regarding the health
of Kabul Bank. According to USAID and Treasury officials, while the working group was created in
response to the Kabul Bank crisis, they intend to continue meeting after the crisis is resolved to continue
coordinating U.S. agency financial sector development efforts. In addition to Treasury and USAID
officials, the working group includes representatives from DOD’s TFBSO and Deloitte contractors that
performed work for USAID under the EGGI contract. Representatives from the World Bank and the
International Monetary Fund also attend. In weekly meetings, working group members provide updates
on their agencies’ financial sector development efforts and identify areas where members can reduce
duplication of effort. Additionally, members discuss systemic risks to the financial sector in Afghanistan.
Previous topics have included the health of banks that DOD uses to make EFT payments to contractors,
negotiations between DAB and the International Monetary Fund over DAB’s response to the Kabul Bank

14
   Office of the Special Representative for Afghanistan and Pakistan: Afghanistan and Pakistan Regional Stabilization Strategy
(Washington, D.C.: February, 2010).
15
   U.S. Embassy in Kabul/U.S. Forces-Afghanistan: United States Government Integrated Civilian-Military Campaign Plan for
Support to Afghanistan (Kabul, Afghanistan: February, 2011).
16
   GAO-06-15, Results-Oriented Government: Practices That Can Help Enhance and Sustain Collaboration among Federal
Agencies (Washington, D.C.: October 21, 2005).
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                           Page 7
crisis, and the effects of the Kabul Bank crisis on U.S. operations in Afghanistan. The working group has
also coordinated efforts to finance the forensic audit of Kabul Bank and other Afghan banks. We
observed a working group meeting and found that members engaged in a frank and open discussion of
financial sector issues and shared important updates on financial sector development program
initiatives. U.S. agencies also participate in other working groups to discuss financial sector and counter
threat finance issues, including the U.S. Embassy’s Executive Level Working Group and the Illicit Finance
Working Group.

Nevertheless, we found instances where agencies were not achieving the level of coordination needed
to realize U.S. reconstruction objectives for Afghanistan. For instance, we found that the Financial
Sector Working Group did not include all agencies involved in implementing financial sector
development programs. Specifically, DHS, which is implementing programs to strengthen the visibility
over currency flows through the financial sector, was not a member of the working group. As a result,
DHS may have been unaware of other agencies’ efforts, and members of the Financial Sector Working
Group may not know of DHS’s efforts. For instance, some DHS officials we spoke with were unaware of
DOD’s role in renovating FinTRACA’s headquarters. 17 The renovation has caused a delay in connecting
the bulk currency counters that DHS is installing at the Kabul International Airport to FinTRACA and
ATFC. DHS and FinTRACA officials agreed to postpone the installation of the server at their office until
FinTRACA has relocated to its new location. (DHS did not want to incur the cost of installing the servers,
which would connect the counters to FinTRACA and ATFC through the internet, at both FinTRACA’s old
and new locations). Had DHS been a member of the Financial Sector Working Group, the two agencies
could have coordinated more closely to avoid the delay or, at a minimum, ensured that DHS was fully
informed as to the reason for the delay.

Furthermore, U.S. agencies involved in financial sector initiatives have not always developed mutually
reinforcing or joint strategies to guide their efforts. For instance, TFBSO provides assistance to Afghan
commercial banks to develop their EFT processing capabilities through a commercial bank consortium
that provides a platform whereby Afghan commercial banks can develop a retail electronic payments
infrastructure. TFBSO has also facilitated the partnership signed between Citibank and AIB. The
agreement established AIB as the primary Afghan commercial bank for DOD vendor payments. DHS has
also been working directly with AIB to install bulk currency counters at the bank through Operation
FinTRAX. However, TFBSO officials told us they were unaware of DHS’ efforts. As a result, these
agencies may be missing opportunities to leverage their efforts and implement their projects more
efficiently and effectively.

Inconsistent Afghan Cooperation Has Negatively Impacted Programs to Strengthen
Afghanistan’s Financial Sector from Achieving Their Intended Results

Although USAID, Treasury, and DHS have reported progress in strengthening the Afghan financial sector,
we identified instances in which limited Afghan cooperation has hindered these programs. For example,
USAID officials reported that some Afghan ministries have resisted efforts to strengthen oversight over
Afghanistan’s banking system. Additionally, the Afghan government has appeared reluctant to
prosecute cases despite Treasury’s efforts to help DAB identify and respond to financial crimes.
Furthermore, the Afghan government has banned U.S. government advisors from working at DAB.
Finally, Afghan officials have resisted instituting certain controls over cash leaving Kabul International
Airport, thereby threatening the success of DHS’s Bulk Cash Flow Action Plan.


17
 Funds used to support FinTRACA’s move to its new facility were committed by ATFC, which used Drug Enforcement
Administration obligations.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                    Page 8
Lack of Sufficient Cooperation from Afghan Ministries Limits Effectiveness of USAID’s EGGI Program

USAID has made some progress in its initiative to build DAB’s capacity to regulate the financial sector,
but inconsistent Afghan cooperation has limited the effectiveness of USAID’s program. USAID initiated
EGGI in 2009 through a contract with Deloitte, LLP. 18 The EGGI program’s goals included implementing a
variety of economic development activities and capacity building efforts such as mentoring the staff of
DAB’s Financial Supervision Department on methods to regulate the financial sector. 19 Additionally,
EGGI’s goals included providing assistance to DAB in strengthening macroeconomic policies and
strengthening financial sector legal and regulatory reforms. USAID obligated about $8.9 million 20 to
provide advisors and technical equipment to support its training programs. With EGGI’s support, the
Financial Supervision Department’s staff increased from 12 personnel, who had limited qualifications, to
60 personnel, who had been trained in methods to regulate banks. According to USAID officials,
regulators from the Financial Supervision Department now conduct monthly and quarterly audits of
commercial bank financial records. EGGI advisors also assisted DAB in reporting its solar year (SY) 1388
(March 2009-March 2010) financial statements on time for the first time since DAB’s reestablishment in
2003.

Other data indicate that EGGI has had some successes. For example, Deloitte showed progress in
meeting a number of USAID-established performance indicators, such as the growth of the financial
sector in Afghanistan. With EGGI’s support, the number of commercial banks operating in Afghanistan
(a key performance indicator) has increased from 6 state-owned banks that provided limited commercial
banking services in 2003 to 17 commercial banks in 2010, 10 of which are Afghan-owned companies.
The number of bank branches has also increased to 327 in SY 1388 (see Figure 2). Collectively, these
banks reported managing more than $3.4 billion in assets in SY 1388 (March 2009-March 2010).
Furthermore, the number of Afghans with accounts at commercial banks (another key performance
indicator) has also grown, from roughly 2 percent in SY 1386 (March 2007-March 2008) to more than
5 percent in SY 1388 (March 2009-March 2010).




18
   Deloitte’s responsibilities under the EGGI contract unrelated to developing DAB’s capacity to regulate the financial sector
include (1) providing support to the Ministry of Finance to improve economic forecasting; (2) assisting various Afghan ministries
to strengthen private sector development; and (3) working with local governments to implement economic policy reforms.
USAID originally awarded the contract (EEM-I-00-07-00005-00) to BearingPoint, which sold its public services businesses
(including the EGGI contract) to Deloitte in May 2009. Because the same advisors who worked for BearingPoint continued to
perform services under Deloitte, we refer to Deloitte as the contractor for the purposes of this report.
19
   DAB’s Financial Supervision Department’s responsibilities include regulating Afghanistan’s commercial banks and other
financial institutions by conducting oversight over the financial statements of these organizations to reduce systemic failures in
the financial sector.
20
   While the total cost of the EGGI contract was $92 million, $8.9 million was dedicated to financial sector development.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                             Page 9
Figure 2: Number of Commercial Bank Branches and Dollar Value of Assets Managed by Afghan Banks
(in millions)

                                Commercial Bank Branches in Afghanistan                                                       Dollar Value of Total Banking Sector Assets
                                                                                                                     $4,000
                          350                                        327                                                                                                    $3,478




                                                                                   Value of Assets in U.S. Dollars
                                                                                                                     $3,500
Number of Bank Branches




                          300
                                                     285
                                    253                                                                                                               $2,942
                                                                                                                     $3,000
                          250
                                                                                                                     $2,500
                          200
                                                                                                                     $2,000        $1,712
                          150
                                                                                                                     $1,500
                          100
                                                                                                                     $1,000
                           50
                                                                                                                      $500
                            0
                                                                                                                        $0
                                    1386             1387            1388
                                                                                                                                    1386               1387               1388
                                 (2007-2008)      (2008-2009)     (2009-2010)                                                    (2007-2008)        (2008-2009)        (2009-2010)


Source: SIGAR Analysis of DAB data.

However, our review of EGGI also indicates that Deloitte did not meet all of the targets set by USAID.
For example, EGGI contractor personnel produced only 2 of the 4 monetary policy briefs they were
supposed to produce from October 2010 to March 2011. Additionally, several of EGGI’s performance
targets for conducting onsite and offsite reviews of commercial banks were not always met from
October 2010 to March 2011. For instance, EGGI contractor personnel planned to assist DAB’s Financial
Supervision Department in conducting 41 onsite examinations of commercial bank financial records, but
DAB completed only 22 from October 2010 through March 2011. Additionally, EGGI’s targets included
supporting the Financial Supervision Department’s issuance of 27 enforcement actions against
commercial banks to call for an improvement in commercial bank management, but the DAB only issued
16 such actions.

This uneven performance may be due, in part, to the difficulty that USAID experienced obtaining full
cooperation from the Afghan government in implementing EGGI. We identified a number of instances
in which this occurred. For example, EGGI’s goals included supporting the passage of key banking sector
reform legislation, such as strengthening risk assessment procedures at commercial banks and
preventing commercial bank shareholders from serving as bank executives. However, EGGI contractor
officials stated that, in some cases, the Afghan Parliament has been reluctant to pass laws, such as the
adoption of leading banking regulation practices that conflict with the interests of Afghan commercial
banks. Additionally, according to USAID, Afghan ministries have not developed long-term strategic plans
that ensure sustainability of USAID-funded projects, despite pressure from USAID to do so. In some
cases, USAID officials stated that DAB officials resisted programs that they believed to be difficult to
implement, even though they represented best practices for central bank operations. For instance, as
part of their support to the Financial Supervision Department, USAID officials proposed that DAB
employees conduct detailed onsite examinations of commercial banks to ensure the soundness of the
banking sector. However, according to USAID, senior DAB officials did not agree to onsite examination
of commercial banks and instead proposed that the DAB employees being supervised by USAID mentors
review records that commercial banks provide to DAB headquarters. Eventually, DAB officials agreed to
support the establishment of onsite examinations by DAB’s Financial Supervision Department. Finally,
U.S. officials reported that weak cooperation from Afghan ministries delayed the forensic audit of Kabul
Bank. 21 Following media reports that raised concerns of widespread fraud at Kabul Bank, EGGI
contractors advised DAB to conduct a forensic audit of Kabul Bank and other Afghan banks to explore
the possibility of fraudulent loans made by Afghan commercial banks. DAB initially agreed to conduct a

21
                 A forensic audit includes reviews of payments to identify financial misconduct, abuse, or wasteful activity.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                                                                                        Page 10
forensic review of Kabul Bank and asked for Treasury and the International Monetary Fund to finance it.
However, the Afghan government withdrew the request in November 2010, after Treasury specified
that to finance the audit, a number of conditions would have to be met. Under Treasury’s conditions,
independent auditors would conduct the forensic audit, Treasury could review the results of the audit,
and the Afghan government would agree to implement any recommendations made in the audit. After
continuing negotiations, the British and Canadian governments agreed to finance the forensic audit in
January 2011. According to ATFC officials, DAB will be responsible for passing a copy of this audit to the
IMF once it is completed.

In February 2011, USAID terminated the financial sector-strengthening component of the EGGI program
and moved DAB activities to a 5-year project – the Financial Access for Investing in the Development of
Afghanistan (FAIDA) – whose goals include strengthening the Afghan financial sector. In May 2011,
USAID announced the launch of FAIDA, a $74 million project that was awarded to Chemonics
International. FAIDA’s objectives include working with Afghan ministries, commercial lenders, and
financial sector organizations to improve financial access in Afghanistan and developing the legal
framework and market infrastructure to improve the Afghan economy.

Limited Number of Prosecutions by Afghan Government Hinders Treasury’s Efforts to Address Money
Laundering and Terrorist Financing

Treasury has had some success in its efforts to strengthen DAB’s capability to address financial crimes,
but the Afghan government has not always prosecuted these crimes. Treasury’s initiatives include
providing support to DAB’s AML/CFT office in its efforts to license hawalas, training and mentoring
AML/CFT personnel in conducting reviews of commercial banks’ AML/CFT compliance programs, and
assisting FinTRACA in improving its ability to identify persons suspected of financial crimes. Treasury has
made some progress in these efforts, including assisting DAB to register almost 170 Kabul-based
hawalas which have more than 650 branches in the provinces. Additionally, Treasury implemented a
program to train DAB regulators in conducting AML/CFT reviews at commercial banks, which as of
October 2010 had had overseen reviews of 15 of the 17 commercial banks operating in Afghanistan to
assess their compliance with AML/CFT standards. FinTRACA’s ability to identify money laundering has
increased with Treasury’s assistance. For instance, according to Treasury officials, FinTRACA information
has been used to stop two money laundering networks operating at the Kabul International Airport, one
of which recovered more than $1.2 million in illicit funds. In another instance, FinTRACA worked with
the ATFC and the Afghan Sensitive Investigative Unit to support an investigation into money laundering
activities in connection with the Hajj. 22

However, the Afghan Attorney General’s office has not cooperated fully in prosecuting individuals
suspected of financial crimes, which has limited FinTRACA’s effectiveness. According to DAB officials,
FinTRACA has received more than 1.8 million Large Cash Transaction Reports, over 600 Suspicious
Transaction Reports, and between 10,000 to 13,000 currency declaration reports from passengers
leaving Afghanistan via Kabul International Airport. 23 FinTRACA officials reported that they forwarded
21 leads to Afghan law enforcement organizations, including the Ministry of Interior, the Major Crimes
Task Force, and the Afghan Attorney General’s office. However, according to these officials, the
Attorney General’s office pursued only 4 of the 21 leads to prosecution. Treasury officials indicated that


22
  The Hajj is a religious pilgrimage that Muslims take to Mecca, Saudi Arabia.
23
  Large Cash Transaction Reports and Suspicious Transaction Reports are two types of reports that financial institutions file
with FinTRACA. Large Cash Transaction Reports are filed when customers conduct transactions of more than 1 million Afghanis
(about $22,000). Suspicious Transaction Reports are filed when customers engage in unusual or suspicious transactions that
could be related to illicit or terrorist activity.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                       Page 11
they were not satisfied with the level of prosecutions and were concerned that some cases were
dropped without a full explanation.

In May 2011, Treasury officials informed us that Afghan President Hamid Karzai had postponed allowing
Treasury advisors to work at DAB while negotiations related to the International Monetary Fund’s aid to
Afghanistan were underway. Subsequently, he decided that U.S. government advisors were no longer
welcome at DAB. According to U.S. Embassy officials, they have no plans to re-engage with DAB.
Furthermore, Treasury officials described the working conditions at DAB as “hostile.”

Limited Afghan Cooperation Hinders DHS’s Efforts to Strengthen Controls over Currency Flows at Kabul
International Airport

DHS has made some progress in implementing its Bulk Cash Flow Action Plan to strengthen visibility over
currency flows through the Afghan economy, but limited Afghan cooperation has prevented DHS from
achieving its intended results. In November 2009 and February 2010, DHS officials conducted
two operations to identify the inbound and outbound flow of currency in the passenger declaration and
inspection process at Kabul International Airport. As a result of concerns about the lack of controls over
the significant flow of currency through the airport, DHS developed the Bulk Cash Flow Action Plan with
assistance from Afghan ministries that conduct operations at the airport. DHS’s responsibilities under
the Bulk Cash Flow Action Plan include supporting the Afghan government to improve airport operations
to strengthen controls over passengers entering and leaving the airport with illicit items (including bulk
cash), and conducting a series of training sessions for Afghan law enforcement officials. DHS has
successfully implemented a number of changes to airport operations, including establishing a secured
customs area where passengers can declare bulk currency, introducing the use of a serialized customs
form to record passenger cash declarations, and posting signs informing outbound passengers of the
requirement to declare their currency to Afghan customs personnel. 24

DHS has also implemented programs to train Afghan border and customs personnel. For instance, DHS
spent about $100,000 to conduct four 1-week training sessions for 84 Afghan law enforcement, security,
and customs officials on bulk cash smuggling. The training was held at the Major Crimes Task Force and
at the Kabul International Airport. According to DHS officials, as a result of this training, Afghan Border
Police personnel along with other Afghan officials interdicted approximately $100,000 in counterfeit
U.S. currency during passenger processing of an inbound international flight. Additionally, DHS officials
reported that they worked with other donor nations and organizations to create the Afghan National
Customs Academy, which trains Afghan customs personnel in methods to detect illicit movements of
goods, people, and funds.

However, the Afghan government has not fully supported DHS efforts to institute additional controls at
the airport. In July 2010, DHS awarded a contract to install two custom-built bulk currency counters for
the airport customs areas, as well as in EFT-capable banks. 25 According to DHS officials, once the
machines were delivered, the installation was delayed by seven months because U.S. and Afghan
officials disagreed on where to install the counters. According to DHS officials, the machines were
installed in early April 2011. At that time, Afghan customs officials were using the machines to count
declared cash, but not to record serial numbers or report financial data to FinTRACA. According to DHS
officials, many of the airport workers felt uncomfortable using the machines and needed time to gain


24
   Additionally, DHS has implemented other customs controls at the airport that are not directly related to the detection of bulk
cash, such as sharing risk management techniques to enhance Afghan customs personnel’s ability to detect smuggling,
conducting an inventory of all x-ray scanners used at border crossings, and improving security in the airport’s cargo areas.
25
   The contract, worth about $117,000, was awarded to the Intelligent Currency & Validation Network.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                           Page 12
familiarity with the machines’ basic function of counting cash. DHS hopes to begin using the machines
to record serial numbers once FinTRACA moves into its new facility. 26

DHS efforts to strengthen controls at the airport have been hampered in other ways. For example,
passengers designated by the Afghan government as VIPs bypass the main security and customs
screenings used by all other passengers and instead use a separate facility to enter the secured area of
the airport. While VIPs are required to declare their currency, Afghan officials reportedly have no plans
to scan their cash through electronic currency counters. Although the Afghan Customs Department
drafted a proposal to subject VIP passengers to the same screening as general passengers, Afghan
Customs Department officials raised objections as to which Afghan ministry would be responsible for
administering the proposal and asked DHS to mediate a solution. However, DHS officials stated that a
solution could not be reached, and the proposal was ultimately withdrawn. DHS officials reported that
they are not allowed to visit the VIP facility to observe how passengers are screened and when we
visited the airport, we were also not permitted to access the VIP area. Furthermore, ATFC officials
informed us that, although a new VIP area was constructed to ensure better oversight, VIPs are
continuing to use the old facility.

Finally, while DHS successfully worked with Afghan officials to install signs at the airport informing
passengers of the requirement to declare cash totaling one million Afghanis or more than (roughly
$22,000 or equivalent in other currencies) prior to leaving Afghanistan through the airport, DHS officials
told us that it took 8 months for Afghan officials to agree on where to place the signs and what exactly
they should say. DHS officials also noted that they were unable to get approval to place the signs at the
entrance to the airport, before passengers pass through customs. As a result, passengers are not
informed of the requirement to declare their currency until it is too late. According to DHS officials,
Afghan airport officials told them that the signs could not be placed at the airport entrance because that
space is reserved for advertisements.


LACK OF VISIBILITY OVER U.S. CASH ENTERING THE AFGHAN ECONOMY LEAVES THESE FUNDS
VULNERABLE TO FRAUD OR DIVERSION TO INSURGENTS

U.S. agencies have taken steps to strengthen their oversight of U.S. funds, but the United States still has
limited visibility over how these funds flow through the Afghan economy, leaving these funds vulnerable
to fraud or diversion to insurgents. U.S. strategies for Afghanistan reconstruction require that
U.S. agencies improve contracting and other payment practices to prevent the use of U.S. funds for illicit
purposes. U.S. agencies have increased their reliance on electronic payments, strengthened some
controls over funds at Kabul International Airport, and started developing infrastructure to make
payments through mobile phones. However, we identified three vulnerabilities that could allow U.S.
funds to be diverted for improper uses. First, U.S. agencies do not record the serial numbers of cash
disbursed to contractors and other recipients of U.S. funds. Second, commercial banks do not record
the serial numbers of EFT payments made by U.S. agencies to contractors and other recipients when
they are monetized. Third, U.S. contracting regulations neither prohibit prime contractors from using
unlicensed hawalas to pay subcontractors nor require prime contractors to use EFT-capable banks to
make payments. Therefore, the United States is unable to record information on these funds when they
enter Afghanistan’s economy and the Afghan and U.S. governments are unable to track them as they
move from person to person. This information would be useful for law enforcement purposes.


26
  As stated earlier in this report, DOD is helping to renovate FinTRACA’s facility, and FinTRACA and DHS officials have agreed to
postpone installing an internet connection at the airport until FinTRACA has moved to the new facility.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                           Page 13
U.S. Strategies Require That Agencies Strengthen Oversight over Funds Disbursed into the
Afghan Economy

Several U.S. reconstruction strategies require that U.S. agencies strengthen their oversight over the
funds provided to contractors and other entities. For instance, the Integrated Financial Operations
Commander’s Handbook 27 states that DOD should improve its visibility over the recipients of U.S. funds
and more effectively track funds as they move from person to person. Specifically, contracting agencies
are to collect and share data on the recipients of U.S. contracts with U.S. and Afghan law enforcement
and military personnel. Moreover, U.S. agencies are supposed to improve the quality of their existing
data on the flow of funds through the Afghan economy to more effectively ensure that these funds are
not being used for illicit purposes. Additionally, USAID acquisition regulations require that USAID
agreement officers obtain certifications from non-governmental organizations that the organization
does not support terrorism. 28 Furthermore, according to this policy, recipients of USAID awards are to
take reasonable assurances that USAID’s funds are not used to provide material support or resources to
individuals or entities that engage in terrorist activity. U.S. agencies are also to improve their
contracting activities by (1) ensuring that contracted funds are not used to empower insurgents;
(2) improving visibility over the use of subcontractors; and (3) integrating contracting activity into
intelligence, plans, and operations. According to the Civilian-Military Campaign Plan for Support to
Afghanistan, U.S. agencies and the Afghan government are to improve identification of and action
against criminal patronage networks and improve contracting to reduce the leakage of U.S. funds to the
illicit market. To achieve these objectives, U.S. agencies are to make payments electronically where
possible. For instance, DOD’s Financial Management Handbook encourages DOD to make payments
electronically where possible and to pay in local currency when using cash. 29 Additionally, a July 2010
USFOR-A policy states that DOD should make payments electronically to the maximum extent possible. 30

U.S. Agencies Have Taken Steps to Improve Oversight over Funds Entering the Afghan
Economy

U.S. agencies have taken steps to strengthen their oversight over funds that enter the Afghan economy.
Most significantly, the U.S. government has reduced the amount of payments made in cash by relying on
electronic payments made through EFTs and mobile phones. According to State and TFBSO officials, EFT
payments allow enhanced oversight, for instance by providing increased opportunities to detect
overpayments. DOD’s TFBSO reported that, as of March 2011, the task force had successfully recovered
more than $7 million in EFT overpayments that U.S. agencies made to contractors in Afghanistan. Had
these payments been made in cash, it is possible that recovering these funds would have been more
difficult, if not impossible.

We found that the U.S. Army’s use of cash to pay contractors has decreased from about 8.7 percent
(almost $21 million) of total U.S. Army payments made to contractors in Afghanistan in January 2010 to
5.9 percent (about $19 million) in January 2011. Total U.S. Army payments during this period were



27
  U.S. Joint Forces Command: Integrated Financial Operations Commander’s Handbook: A Joint Force Guide to Financial
Operations (Joint Warfighting Center, Suffolk, Virginia: November 2, 2010).
28
   USAID Acquisition & Assistance Policy Directive: Certification Regarding Terrorist Financing Implementing E.O. 13224 (AAPD-
04-14): September 24, 2004.
29
   U.S. Army Field Manual No. 1-06 (supersedes FM 14-100). Financial Management Operations. Washington, D.C.: September
2006.
30
   U.S. Forces-Afghanistan Fragmentary Order 10-208. Implements E-Commerce and Reduction of Cash in the Combined Joint
Operational Area-Afghanistan. July 2010.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                        Page 14
about $3.5 billion, and cash payments were almost $235 million. 31 Figure 3 depicts the percentage of
payments made in cash by the U.S. Army Finance Office in Afghanistan.

Figure 3: Percentage of U.S. Army Finance Offices’ Payments Made in Cash in Afghanistan




Source: SIGAR analysis of Defense Finance and Accounting Service data.
Note: Data include cash payments made in U.S. dollars and dollar value of cash payments made in Afghanis. Includes data on
payments made to support DOD’s military mission in Afghanistan, as well as payments made to implement Afghan
reconstruction projects.

State’s use of cash payments has also decreased, and most of State’s payments – over $185 million (or
more than 98 percent) – were made through EFTs from January 2010 through March 2011. Cash
payments made by State ranged from less than one percent to nearly three percent of its total
payments (see figure 4).




31
  This figure includes payments made to implement reconstruction projects in Afghanistan, as well as to support the U.S.
military mission in Afghanistan. It does not include salary and benefits payments made to DOD employees or aid provided to
support the salaries of Afghan National Security Forces personnel.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                       Page 15
Figure 4: Percentage of State’s Payments Made in Cash in Afghanistan
                                                10.0%
     Percentage of Army Payments Made in Cash

                                                9.0%
                                                8.0%
                                                7.0%
                                                6.0%
                                                5.0%
                                                4.0%
                                                3.0%
                                                2.0%
                                                1.0%
                                                0.0%




                                                        Total Cash   Trendline

Source: SIGAR analysis of State’s Office of Acquisitions Quality Management data.
Note: Data include cash payments made in U.S. dollars and dollar value of cash payments made in other currencies, including
Afghanis. Includes data on payments made to support State’s civilian in Afghanistan, as well as payments made to implement
Afghan reconstruction projects.

USAID has also taken a number of steps to increase controls over its funds entering the Afghan
economy. For instance, USAID officials reported that they use only EFTs to make payments to
contractors, implementing partners, and other recipients in Afghanistan. From October 2009 through
October 2010, USAID reported more than $1.2 billion in payments made against contracts, grants, or
cooperative agreements in Afghanistan. USAID is also supporting the development of the capability to
transfer funds, repay project loans, and distribute employee salaries through mobile phones as part of
the FAIDA program. 32 This program builds on a DOD pilot program to support the salaries of Afghan
National Police personnel to include other Afghan government employees by making payments
electronically. Finally, in April 2011, a USAID-led task force, which included the ATFC, reiterated
previous reports that found that U.S. funds may have been redirected to the Taliban or other insurgent
groups. The task force made a number of recommendations to improve controls over funds in the areas
of award mechanisms, partner vetting, financial controls, and project oversight.

In addition to decreasing cash payments, the U.S. government has taken steps to strengthen controls
over cash leaving Kabul International Airport, as previously discussed in this report. Specifically, while
DHS’s Bulk Cash Flow Action Plan and Operation FinTRAX are designed to help build the Afghan
government’s capacity to monitor currency flows, they are also intended to help the U.S. government
gain visibility over its funds.

U.S. Reconstruction Funds Are Vulnerable Due to Insufficient Controls over U.S. Cash in the
Afghan Economy

The United States has taken some steps to strengthen oversight over funds entering the Afghan
economy; however, we identified three weaknesses that potentially leave these funds vulnerable to
fraud or diversion to insurgents. First, DOD and State both stated that they do not record the serial

32
   To make mobile phone payments, users first open a mobile money account via an agent, who has a formal bank account
linked to a commercial bank. The user can use his or her mobile phone to send or receive money to other users electronically.
The recipient of funds may transfer electronic funds to other users or monetize the funds through an agent.


SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                        Page 16
numbers of cash payments made to contractors when these funds are disbursed. Second, commercial
banks lack the capacity to record the serial numbers of EFT payments made to contractors and other
recipients of U.S. funds when they are monetized. Third, U.S. contracting regulations neither prohibit
prime contractors from using unlicensed hawalas to pay subcontractors nor require the use of EFTs to
make payments. Figure 5 shows where these weaknesses occur as U.S. funds flow through the Afghan
economy.

Figure 5: Vulnerabilities in Flow of U.S. Funds Through the Afghan Economy
                                             DOD, State, and USAID                           Salary support payments
                                              payments made to                                made by USAID, State,
                                             contractors and other                                    and the
                                                    entities                                  U.S. Embassy in Kabul



 Disbursement:
                                            EFT
 U.S. agencies use EFT or                                            Cash
 cash to make payments to
 contractors and Afghan                                                              Da Afghanistan
                                                                                         Bank
 civil servants. EFT
 payments flow through a
 contractor’s commercial
 bank account, while cash                                                                             Ministry of
                                                                 Direct cash                          Finance or
 is paid directly to the                 Electronic
                                                                  payment to                      Interior (for ANSF
                                      payment made to
 recipient.                           contractor’s bank
                                                                  contractor                          personnel)
                                                                (Vulnerability)


                                                                                                 EFT              Cash



                                                                                                                    Direct cash
                                                                                      EFT payment                 payment made
                                                                                       made to civil              to civil servant
                                                                                      servant’s bank               (Vulnerability)


Monetization:
Payments are converted                  Contractor                                    Civil servant
                                      monetizes EFT                                  monetizes EFT
into cash at a commercial                payment                                       Payment.
bank.                                 (Vulnerability)                                (Vulnerability)




                                                                                                         Civil
                                                   Contractor
                                                                                                       Servant
                                                    receives
                                                                                                       receives
                                                    payment
                                                                                                       payment



Circulation:                                 Contractor circulates
Funds are used to pay                          funds through the                                 Payment circulates
                                               Afghan economy,                                    through economy
subcontractors or                               including paying
circulated through the                           subcontractors
Afghan economy. Some                          through unlicensed
                                                     hawalas
funds leave the country to                        (Vulnerability)
pay for imports or to settle
foreign debts.
                                                                            Some funds
                                                                                leave
                                                                            Afghanistan
                                                                               through
                                                                            airports and
                                                                            other border
                                                                             crossings



 Key:
   C

          EF

                      Vu
    as


              T

                       ln
     h

               Pa

                           er
         Pa




                            ab
                  ym
          ym




                                ili
                      en
              en




                                 ty
                       t
                  t




Source: SIGAR analysis of information provided by State, Treasury, DOD, and DHS.
Note: Figure shows payments made through Afghan banks. U.S. agencies, such as DOD, also make payments through U.S.
banks, but these payments do not directly enter the Afghan economy and are, therefore, not depicted in this figure. As we
noted previously, USAID does not make cash payments to recipients.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                                        Page 17
U.S. Army and State Do Not Record Serial Numbers of Cash Payments

U.S. Army and State’s visibility over the flow of cash payments through the Afghan economy is limited
because DOD and State officials responsible for making these payments do not record the serial
numbers of the cash before it is disbursed. Although not specifically required, recording serial numbers
would allow U.S. and Afghan law enforcement personnel to track the movement of these funds once
they are paid to contractors and other recipients. According to DHS officials responsible for
implementing Operation FinTRAX, data on the serial numbers of cash paid by U.S. agencies could be
used to prevent financial crimes. For instance, U.S. law enforcement personnel could scan the serial
numbers of cash recovered from military operations to trace the source of these funds and determine
the extent to which they passed through U.S. contractors. Additionally, U.S. and Afghan officials could
use these data to identify U.S. funds that exit the country through Kabul International Airport by
matching the serial numbers of currency paid to U.S. contracting agencies with data recorded by bulk
currency counters at the airport. Without recording the serial numbers of cash prior to disbursement,
U.S. agencies, such as the ATFC, miss an opportunity to gain greater visibility over these funds.

Absence of Bulk Currency Counters at Afghan Commercial Banks Limits U.S. Visibility over EFT Payments
When They Are Monetized

U.S. agencies also lack visibility over EFT payments once they are monetized by contractors because
Afghan commercial banks do not record the serial numbers of monetized payments. As we note above,
the majority of the U.S. Army and State’s payments to contractors are made electronically, and USAID
reported that it only uses EFTs to make all its payments to contractors and implementing partners in
Afghanistan. However, because Afghanistan’s economy is cash-based, contractors that receive EFT
payments typically monetize the deposits at commercial banks. This process reduces the oversight over
the flow of funds because banks do not record the serial numbers of cash disbursed. Without this
information, U.S. and Afghan law enforcement efforts to track the movement of U.S. funds from person
to person are made more difficult.

To improve oversight over the flow of U.S. funds once they are monetized, DHS developed plans to place
bulk currency counters at several Afghan commercial banks that manage payments made to recipients
from U.S. sources. However, DHS officials have been unable to reach agreement with the banks as to
how many counters would be purchased and where they would be installed. For example, one
commercial bank wants DHS to install 19 bulk currency counters (one for its headquarters in Kabul and
18 for its branch locations throughout Afghanistan), but DHS is prepared to install only one machine at
its headquarters. Installing the bulk currency counters at commercial banks and recording the serial
number data on the EFT payments monetized by contractors would enhance the capacity of U.S.
agencies to (1) monitor the flow of these funds through the Afghan economy and (2) more effectively
identify persons suspected of using these funds for illicit purposes. According to DHS officials, they have
approached USAID for assistance on this issue, but no final agreements have been reached. However,
USAID officials reported to us that current USAID staff has no knowledge of this request for assistance.

U.S. Contracting Regulations Do Not Place Conditions on How Prime Contractors Pay Subcontractors

Although U.S. contracting regulations generally emphasize the use of electronic payments to make
payments to prime contractors, no such regulations exist for prime contractors’ payments to
subcontractors. We reviewed DOD, State, and USAID contracting regulations, including the Federal
Acquisition Regulation, and found that they do not require that contractors receiving U.S. funds pay
subcontractors through either EFT-capable banks or licensed hawalas, which are required to submit
their financial records to FinTRACA. Contracting officials at DOD’s Defense Finance and Accounting

SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                      Page 18
Service, State’s Acquisition and Assistance Office, and USAID’s Office of Financial Management staff
confirmed that no such regulations exist. In June 2011, we discussed these issues with DOD officials
responsible for setting contracting and financial execution policy. These officials stated that requiring
the use of electronic payments by prime contractors to pay subcontractors may be difficult to enforce
and could potentially conflict with some contracting regulations, including principles related to privity of
contract. 33 However, other policies require contracting organizations to exercise enhanced oversight
over subcontractors. For instance, according to USFOR-A contracting policy issued in September 2010,
contracting organizations are to identify the use of subcontractors in Afghanistan and ensure that prime
contractors are held responsible for subcontractor performance. Furthermore, according to this policy,
prime contractors are responsible for providing detailed information on subcontractors.

We found that some prime contractors use hawalas, including those who are unlicensed, to transfer
funds to subcontractors. For example, we previously reported about a hawala dealer who was
contracted to transfer $2.8 million in National Solidarity Program funds to program officials in Paktika
province. 34 However, the World Bank reported that once these funds passed through a local hawala,
they never reached their destination. Through our subsequent analysis, we determined that while the
contracted hawala dealer was on Treasury’s list of registered providers, a second hawala dealer that was
used to transfer funds was not. Despite investigations by National Solidarity Program personnel and
interventions on the part of the Afghan Attorney General’s office, this hawala continues to retain the
majority of these funds and refuses to deliver them to the intended communities. 35 Because unlicensed
hawalas do not report their transactions to FinTRACA, U.S. and Afghan law enforcement personnel
seeking to trace the source of currency lose oversight over funds when they pass through unlicensed
hawalas.

In February 2011, we discussed these issues with USAID officials and recommended that USAID ensure
that prime contractors receiving USAID funds pay their subcontractors electronically whenever possible.
Additionally, a task force created by USAID to enhance accountability of USAID funds recommended in
April 2011 that USAID’s implementing partners make electronic payments to subcontractors where the
infrastructure exists. USAID Comptroller officials told us that, although they encourage their
implementing partners to use EFTs to make payments to subcontractors, placing requirements on how
payments are processed would “handcuff” their implementing partners, particularly those operating in
remote areas of Afghanistan. We identified licensed hawalas in all but 9 provinces and EFT capable
banks in all 34 provinces of Afghanistan. Furthermore, all Afghan provinces have at least one licensed
hawala or EFT-capable bank (see figure 6).




33
   According to the Federal Acquisition Regulation, the U.S. government generally has no direct legal relationship with
subcontractors that are employed by prime contractors unless such a relationship is specified by clause in the contract or
required by agency contracting policy. See FAR Part 42.201.
34
   The National Solidarity Program (NSP) is a community development and local governance program managed by the Afghan
Ministry of Rural Rehabilitation and Development. It is funded primarily through the Afghanistan Reconstruction Trust Fund,
(ARTF) which is administered by the World Bank, and largely (almost 35 percent or $528 million) funded by the United States.
See SIGAR Audit 11-8. Afghanistan’s National Solidarity Program Has Reached Thousands of Afghan Communities, but Faces
Challenges that Could Limit Outcomes (Washington, D.C.: March 22, 2011).
35
   Due to the urgent nature of this incident, we informed the U.S. Ambassador to Afghanistan of this issue in December 2010
through a separate letter prior to completing our audit of the National Solidarity Program.
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                        Page 19
Figure 6: Map Indicating Locations of EFT Capable Banks and Licensed Hawalas in Afghanistan




Source: SIGAR analysis of Treasury data.
Note: Map provided by the U.S. National Geospatial Intelligence Agency. Boundaries and place names are not authoritative
and should not be used for navigation or other related purposes.



CONCLUSION

Since 2002, Congress has appropriated more than $70 billion to implement security and development
assistance projects in Afghanistan, with some of those funds converted to cash and flowing through the
Afghan economy. To ensure that the Afghan financial sector can absorb the influx of these funds and to
develop the government of Afghanistan’s capacity to sustain a viable market economy, U.S. agencies are
implementing programs to increase DAB’s capacity to regulate commercial banks and other financial
organizations in Afghanistan. However, the near collapse of Kabul Bank in September 2010 and
continued uncertainty about the health of Afghanistan’s remaining banks demonstrate the challenges of
developing effective regulatory capacity that limit systemic financial risks. Additionally, inconsistent
Afghan cooperation on financial sector issues highlights the challenge of providing assistance in an
environment where the effects of U.S. agency financial sector development efforts may be limited by
the challenges in the Afghan judicial sector. While U.S. agencies have strengthened their coordination in
the wake of the Kabul Bank crisis, more can be done to ensure that these initiatives are not duplicating
efforts or, at a minimum, working at cross purposes. Furthermore, given the amount of U.S. cash that
flows through the Afghan economy, it is imperative that the U.S. government have robust measures in
place to ensure that these funds are not used for fraud or diverted to insurgent networks. However, we
found that agencies have not instituted sufficient controls over U.S. funds, limiting their oversight over
these funds and potentially the ability of the ATFC to ensure that these funds are not diverted to

SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                     Page 20
insurgents. As a result, the U.S. risks inadvertently funding activities that directly oppose its
reconstruction goals for Afghanistan.


RECOMMENDATIONS

We are making four recommendations to improve interagency coordination on financial sector
development programs and to strengthen oversight over the flow of U.S. funds through the Afghan
economy.

To help leverage available resources and expertise and avoid duplication of agency efforts on financial
sector issues, the U.S. Ambassador to Afghanistan should instruct the members of the Financial Sector
Working Group to:

    1. Develop an interagency strategy to coordinate efforts to work with Afghan banks to increase
       their EFT, internal processes, and transaction accountability capabilities.

To strengthen oversight over the flow of U.S. funds through the Afghan economy and to support overall
U.S. reconstruction goals in Afghanistan, the Secretary of State and the Secretary of Defense should
instruct their contracting and financial authorities to:

    2. Institute steps to record the serial numbers of cash disbursed to contractors and provide these
       data to U.S. law enforcement officials (including the Afghan Threat Finance Cell), as well as
       FinTRACA or another appropriate Afghan source.
    3. Develop a plan to ensure that Afghan banks that provide payments to recipients of U.S. EFT
       payments record the serial numbers of cash paid to these recipients by using bulk currency
       counters and that these data are reported to U.S. law enforcement officials (including the
       Afghan Threat Finance Cell), as well as FinTRACA or another appropriate Afghan source.
    4. Insert a standard clause into U.S. contracts, grants, and cooperative agreements with entities
       operating in Afghanistan requiring that these contractors pay their subcontractors through
       either an EFT-capable bank or a licensed hawala, where possible. Alternatively, if a
       determination is made that such a clause would not be feasible under existing regulations,
       submit a formal proposal to Congress with legislative language allowing the inclusion of such a
       clause.


COMMENTS

The U.S. Embassy in Kabul, DHS, and USAID provided written comments on a draft of this report. These
comments are reproduced in appendices II-IV, respectively. We also provided DOD an opportunity to
comment on a draft of this report, but they did not have any comments. Additionally, USAID, DHS, the
Afghan Threat Finance Cell, and the U.S. Embassy in Kabul provided technical comments, which we
incorporated as appropriate.

Our draft of this report included a recommendation that the members of the Financial Sector Working
Group include DHS in their planning meetings. Because the U.S. Embassy Kabul, USAID, and DHS
subsequently did so, we deleted the recommendation.

In its response, the U.S. Embassy in Kabul generally agreed with our recommendations, but cited some
difficulties implementing them. For example, in response to our recommendation that U.S. agencies
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                       Page 21
develop an interagency strategy to coordinate efforts to work with Afghan banks to increase their EFT
internal processes and transaction accountability capabilities, the U.S. Embassy noted that
accomplishing this task will require consensus among and action by Afghan ministries, the U.S.
government, and other donors implementing reconstruction and development projects in Afghanistan.
The U.S. Embassy concurred with our last recommendation, stating that it will add a clause to its
contracts requiring implementing partners make payments only through EFTs or licensed hawalas.

DHS commented that it was pleased to note the positive acknowledgment of its role in helping
implement programs to develop the Afghan government’s capacity to regulate its financial sector and
strengthen controls over U.S. funds that enter and leave Afghanistan. It also stated that it remains
committed to continuing its work with interagency partners, such as Treasury, and other relevant
stakeholders in minimizing terrorist threats in Afghanistan, and in particular the threats posed by bulk
cash smuggling.

In its response, USAID stated that, working through the Financial Sector Working Group, the U.S. Mission
to Afghanistan agrees to seek consensus for, and commitment to contribute to, the development of a
donor-supported, Afghan government-owned strategy to increase EFT processing capabilities and to
install bulk currency counters at banks in Afghanistan. However, USAID expressed concern about our
recommendation that the Secretary of State and Secretary of Defense instruct their contracting and
financial authorities to insert a standard clause into awards requiring that implementing partners make
payments through EFT or licensed hawalas. Although this recommendation is not directed to USAID, it
noted that many of its implementing partners lack access to banks that provide EFT services. While the
use of EFTs or licensed hawalas to make payments may not be practical in all circumstances, we
determined that all Afghan provinces have at least one licensed hawala or EFT capable bank. In
addition, our recommendation states that the proposed clause should stipulate that contractors pay
their subcontractors through either an EFT-capable bank or a licensed hawala, where possible.




SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                      Page 22
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of U.S. assistance provided to develop the financial sector in Afghanistan and of
U.S. controls over payments made to contractors and other entities in Afghanistan. The objectives of
this audit were to (1) evaluate the U.S. efforts to improve the capacity of the Afghan government to
regulate the financial sector and (2) to assess the controls that U.S. agencies use to track U.S. funds as
they flow through the Afghan economy. Afghanistan’s financial sector includes institutions such as
commercial banks, hawalas, and the Afghan central bank (Da Afghanistan Bank, or DAB). We limited the
scope of our second objective to a review of the controls implemented by the Departments of Defense
(DOD) and State and the U.S. Agency for International Development (USAID) over payments made to
contractors and other entities because these U.S. agencies have the greatest involvement in
implementing reconstruction projects in Afghanistan.

To evaluate U.S. efforts to improve the capacity of the Afghan government to regulate its financial
sector, we reviewed U.S. and Afghan strategies, plans, and other program documentation relevant to
the financial sector development programs that U.S. agencies have implemented in Afghanistan.

    •   To evaluate the Department of Homeland Security’s (DHS) financial sector development
        programs, we reviewed its Bulk Cash Flow Action Plan, an update to this plan, as well as a DHS
        briefing on financial sector issues. We reviewed contract data related to DHS’s Operation
        FinTRAX, an initiative to place bulk currency scanners at the Kabul International Airport, and met
        with DHS officials in Washington, D.C. and Kabul, Afghanistan. Additionally, we conducted two
        site visits to the Kabul International Airport in February and April 2011.
    •   To evaluate Treasury’s efforts to improve the capacity of the Afghan government to regulate its
        financial sector, we reviewed Treasury’s agreements with the Afghan government outlining the
        roles and responsibilities of Treasury’s advisors to be posted at DAB. We interviewed Treasury
        officials in Washington, D.C. and officials affiliated with the Treasury attaché office at the U.S.
        Embassy in Kabul. We also conducted a site visit to DAB in February 2011, where we also
        interviewed Afghan officials responsible for administering DAB programs.
    •   To evaluate USAID’s efforts to improve the capacity of the Afghan government to regulate its
        financial sector, we reviewed Economic Governance and Growth Initiative (EGGI) contract
        documentation, including the contract and associated modifications issued against the contract,
        the contract work plan, and reports of performance provided by the contractor (Deloitte, LLP).
        SIGAR’s forensic auditing team ran a series of tests on the EGGI contract to identify anomalies,
        which could indicate fraud, waste, or abuse, and we considered the results of those tests in our
        audit. We met with USAID officials responsible for administering the EGGI contract in Kabul and
        with Deloitte personnel responsible for performing work on the contract. Because key
        performance indicators established by USAID included increasing the number of commercial
        banks and use of the commercial banking system, we obtained data from DAB on the growth of
        commercial banks and the assets managed by commercial banks in Afghanistan.
    •   To evaluate the efforts of DOD’s Task Force for Business and Stability Operations (TFBSO), we
        reviewed program documentation on its initiatives to develop the financial sector in
        Afghanistan. We met with a TFBSO official in Washington, D.C. to identify the program’s efforts
        to improve the capacity of the Afghan financial sector. We also reviewed data provided by
        TFBSO on the contracts reviewed by the EFT Assistance Center.



SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                       Page 23
In addition to our agency-specific assessments, we reviewed U.S. government efforts to strengthen
coordination on financial sector issues. To accomplish this review, we analyzed U.S. strategies for
reconstruction in Afghanistan and leading practice standards for interagency collaboration. We
reviewed the minutes of the interagency Financial Sector Working Group and observed a meeting of this
group. We also interviewed Financial Sector Working Group officials, including officials with Treasury
and USAID, and met with World Bank officials who participate in working group meetings.

To assess the internal controls that U.S. agencies use to track U.S. funds as they flow through the Afghan
economy, we reviewed relevant U.S. strategies, including the Integrated Financial Operations
Commander’s Handbook, 36 the Civilian-Military Master Campaign Plan for Support to Afghanistan, 37 and
DOD’s Counterinsurgency Field Operations Manual. 38 In addition, we reviewed a Fragmentary Order
issued by U.S. Forces-Afghanistan 39 to strengthen oversight over U.S. funds and reduce the use of U.S.
dollars in Afghanistan. We also identified the extent to which U.S. agencies make payments in
Afghanistan in cash or electronic payments by collecting and analyzing data on disbursements made by
DOD, State, and USAID from January 2010 through January 2011. DOD’s Defense Finance and
Accounting Service reported that it uses the Deployable Disbursing System Repository Initiative to
manage this information. State’s Office of Acquisitions Management previously reported that they use
the Global Financial management system to record and store data on disbursements made in
Afghanistan. USAID reported that it uses Phoenix Viewer to record and store data on disbursements
made in Afghanistan.

To verify the reliability of computer-processed data provided by DFAS and USAID on payments made in
Afghanistan by type (cash, EFT, or other media), we checked the data for missing or outlier values,
confirmed individual and summary values with DFAS, USAID, and DHS officials, and traced a sample of
summary-level records to their sources. Because we did not find any significant errors in these data, we
determined that they were sufficiently reliable for the purposes of this report.

As part of our efforts to assess the controls that U.S. agencies have in place to track U.S. cash as it moves
through the Afghan economy, we also interviewed program officials at State’s Special Representative for
Afghanistan and Pakistan, the DHS and Treasury attaché offices in Kabul, and DOD’s Task Force on
Business and Stability Operations. In addition, to identify the procedures used to record disbursements,
we interviewed program officials with the Defense Finance and Accounting Service, the USAID
Comptroller, and State’s Office of Acquisitions and Assistance.

Finally, to obtain information on the use of hawalas in Afghanistan, we received data from Treasury on
the names of licensed hawalas in English and in Dari. To verify that these data were accurate, we traced
a sample of the English records to their equivalent Dari records and did not find significant differences in
the records. We also used geolocation data provided by USAID to place the location of these hawalas
throughout Afghanistan and plotted these data on maps provided by the National Geospatial
Intelligence Agency.


36
   U.S. Joint Forces Command: Integrated Financial Operations Commander’s Handbook: A Joint Force Guide to Financial
Operations (Joint Warfighting Center, Suffolk, Virginia: November 2, 2010).
37
   U.S. Embassy in Kabul/U.S. Forces-Afghanistan: United States Government Integrated Civilian-Military Campaign Plan for
Support to Afghanistan (Kabul, Afghanistan: February, 2011).
38
   U.S. Army Field Manual No. 3-24/U.S. Marine Corps Warfighting Publication No. 3-33.5. Counterinsurgency (Washington, D.C:
December 2006).
39
   U.S. Forces-Afghanistan Fragmentary Order 10-208. Implements E-Commerce and Reduction of Cash in the Combined Joint
Operational Area-Afghanistan. July 10, 2010.



SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                                      Page 24
We conducted our work in Washington, D.C. and Kabul, Afghanistan, from October 2010 to July 2011 in
accordance with generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. The audit was
conducted by the Office of the Special Inspector General for Afghanistan Reconstruction under the
authority of the Inspector General Reform Act of 2008, and Public Law No. 110-181, as amended.




SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                                   Page 25
APPENDIX II: COMMENTS FROM THE U.S. EMBASSY KABUL




SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance   Page 26
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance   Page 27
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance   Page 28
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance   Page 29
APPENDIX III: COMMENTS FROM THE DEPARTMENT OF HOMELAND SECURITY




SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance     Page 30
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance   Page 31
APPENDIX IV: COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT




SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance         Page 32
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance   Page 33
SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance   Page 34
                  (This report was conducted under the audit project code SIGAR-036A).




SIGAR Audit-11-13 Anti-Corruption/Financial Sector Assistance                            Page 35
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
